-   August 25,2005




Oversight Review
Quality Control Review of Army Audit
Agency's Special Access Program
Audits (Report No. D-2005-6-008)




          rn       Department of Defense
               Office of the Inspector General
Quality                   Integrity        Accountability
I    Additional Copies
                                                                                            I
     To obtain additional copies of this report, visit the Web site of the Department of
     Defense Inspector General at ht~://www.dodi~.rnil/audit/r~orts      or contact the
     Office of Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-9808,
     Suggestions for Future Audits
     To suggest ideas for or to request future audits, contact the Office of Audit Policy
     and Oversight at (703) 604-8760 or fax (703) 604-9808. Ideas and requests can
     also be mailed to:
                                        OAIG-APO
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 1015)
                                Arlington, VA 22202-4704




    Acronyms
    AAA          Army Audit Agency
    AFAA         Air Force Audit Agency
    AIC          Auditor-In-Charge
    GAS          Government Auditing Standards
    PCIE         President's Council on Integrity and Efficiency
    SAP          Special Access Program
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                      AUG 2 5 2005

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Quality Control Review of Army Audit Agency's Special Access Program
         Audits (Report No. D-2005-6-008)

       We are providing this report for your information and use. We reviewed the Army
Audit Agency (AAA) system of quality control over Special Access Program (SAP)
audits for the three years ended September 30,2004. The Government Auditing
Standards (GAS) require that an audit organization performing audits andlor attestation
engagements in accordance with GAS should have an appropriate internal quality control
system in place and undergo an external peer review at least once every three years by
reviewers independent of the audit organization being reviewed. As the organization that
has audit policy and oversight responsibilities for audits in the DoD, we conducted this
external peer review of the AAA SAP audits in conjunction with the Air Force Audit
Agency (AFAA) external peer review of AAA non-SAP audits.

       An audit organization's quality control policies and procedures should be
appropriately comprehensive and suitably designed to provide reasonable assurance of
meeting the objectives of quality control. We tested the AAA SAP system of quality
control to the extent considered appropriate.

       In our opinion, the system of quality control for the audit function of AAA SAP
audits in effect for the period ended September 30,2004, was designed in accordance
with quality standards established by GAS. Further, the internal quality control system
was operating effectively to provide reasonable assurance that SAP audit personnel were
following established policies, procedures, and applicable auditing standards.
Accordingly, we are issuing an unqualified opinion on your SAP audit quality control
system for the review period ended September 30,2004.

       Appendix B contains comments, observations, and recommendations where AAA
can improve its quality control program related to SAP audits, as well as our responses to
AAA management comments to draft and revised draft versions of this report.
Appendix C provides the full text of management comments in response to both the
original and revised draft reports.
       See Appendix A for the scope and methodology of the review. We wish to express
our thanks to you and your staff for your cooperation and professionalism. Please contact
Mr. Robert L. Kienitz, Acting Project Manager at (703) 604-8754 or Ms. Carolyn R.
Davis, Deputy Assistant Inspector General for Audit Policy and Oversight at
(703) 604-8877 if you have any questions.



                                  c-i&coau
                                         p ricia A. Brannin

                                         Assistant Inspector General
                                          Audit Policy and Oversight



Cc: Director, DoD Special Access Program Coordination Office
Appendix A. Scope and Methodology
We limited our review to the adequacy of AAA S A P audits' compliance with quality
policies, procedures, and standards. We judgrnentally selected 3 SAP audits from a
universe of 72 formal reports issued by AAA SAP auditors during FYs 2002,2003, and
2004, and tested each audit for compliance with the AAA system of quality control. The
AFAA conducted a review of the AAA internal quality control system for non-SAP audits
andlor attestation engagements and has issued a separate report. The Assistant Inspector
General for Audit Policy and Oversight will issue an overall opinion report on the AAA
internal quality control system that will include the combined results of the SAP and
non-SAP reviews.

In performing our review, we considered the requirements of quality control standards
and other auditing standards contained in the 2003 Revision of the Government Auditing
Standards issued by the Comptroller General of the United States. GAS 3.52 states:

      The external peer review should determine whether, during the period under review, the
      reviewed audit organization's internal quality control system was adequate and whether
      quality control policies and procedures were being complied with to provide the audit
      organization with reasonable assurance of conforming with applicable professional
      standards. Audit organizations should take remedial, corrective actions based on the
      results of the peer review.

We conducted this review in accordance with standards and guidelines established in the
Draft 2004 President's Council on Integrity and Efficiency (PCIE) "Guide for Conducting
External Peer Reviews of the Audit Operations of Offices of Inspector General." We
modified the Guide to ensure consistency with the AFAA review of non-SAP audits, and
to reflect the unique nature of auditing within a SAP environment. We reviewed audit
documentation, interviewed AAA auditors and their managers, reviewed AAA internal
audit-related policies and procedures. We performed this review from April to June 2005
at two AAA field offices.

      We used the following criteria to select the audits under review:

             Worked backward starting with FY 2004 audits in order to review the most
             current quality assurance procedures in place.
             Eliminated Base Realignment and Closure audits because they are not
             considered typical audits.
             Avoided audits with multiple SAPSassociated with the audit for ease of
             access.
             Avoided audits that have the same or similar titles, to ensure review of
             multiple types of projects.
The following table identifies the specific reports reviewed.




Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures,
departures can result from misunderstanding of instructions, mistakes of judgment,
carelessness, or other human factors. Projecting any evaluation of a quality control
system into the Euture is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with procedures
may deteriorate.
Appendix B. Comments, Observations, and
            Recommendations
We are issuing an unqualified opinion because this is the first external peer review for
AAA SAP audits and the issues we identified were not cumulatively significant to the
reports' findings, conclusions, and recommendations. Overall, we found that AAA could
improve the quality control program and guidance related to the areas of Supervision,
Evidence and Audit Documentation, Reporting, and Quality Assurance for SAP audits.
Implementing the recommendations would improve the quality control system and help
maintain an unqualified opinion.

Supervision. The 2003 revision of the GAS issued by the Comptroller General of the
United States requires staff to be properly supervised and reviews of audit work to be
documented. Additionally, AAA Regulation 36-3, "Audit Survey and Execution," states
that supervisory reviews of working papers are mandatory and supervisors must
document their reviews.

We found that the Auditors-In-Charge (AIC) usually documented their reviews of
working papers with initials and dates. However, we found that most working papers
created by the AIC did not have documented evidence of higher level supervisory review.

The AAA SAP audit environment results in limitations on availability of auditors that
have access to the programs because of the special security requirements. As a result,
AICs will generally conduct more field work than in an unclassified environment.
Therefore, in such an environment, supervision of AIC working papers becomes more
important as a quality control measure. AAA SAP audit managers should have
procedures in place to ensure they satisfy the supervision standard at all levels for
working papers of staff auditors and AICs, including consideration of alternative methods
of documenting supervision of AICs.

       Recommendation. We recommend that the Army Auditor General develop
alternative policy guidance or amend AAA Regulation 36-3 to include procedures for
documenting supervisory review of the work of AICs within the SAP environment.

       Management Comments. The Army Auditor General partially concurred with
the recommendation, stating that while supervisory reviews must be performed and
documented, alternative policy guidance or an amendment to existing guidance is not
necessary. The Army Auditor General stated that during the course of the peer review of
SAP audits, the Program Director for SAP audits issued guidance emphasizing the
requirement for supervisory reviews. In addition, the Army Auditor General stated that
AAA would issue a memorandum to all agency personnel discussing the results of the
peer review and reminding them of the existing guidance related to supervision. AAA
also plans to include supervisory review of working papers as a special interest item
during its future post audit reviews and the FY 2006 functional reviews. In addition, as
part of a new AAA regulation on the report writing process (to be issued by
September 30,2005), the Independent Review Checklist will include a question on
whether the working papers have been reviewed.

       Reviewer Response. Management comments meet the intent of the
recommendation. The AAA memorandum discussing the results of the peer review and
reminding agency personnel of existing guidance related to supervision was issued on
July 29,2005.

Evidence and Audit Documentation. The GAS requires that auditors prepare and
maintain audit documentation to form the principal record of the audit work performed
and the conclusions reached. AAA Regulation 36-3 states that AAA auditors must ensure
the evidence in audit working papers is adequate to support the audit results, to include all
statements of fact presented in the audit report. In addition, AAA Regulation 36-3 states
that as a general rule all working papers or groups of related working papers should
contain certain basic information such as purpose, source, scope, results, and conclusions.

Although we found AAA working papers contained sufficient, competent, and relevant
evidence to support judgments and conclusions in the reports, improvements could be
made to audit documentation. Some of the deficiencies we noted during our review were:

       Documentation to support changes to facts and figures between the draft and final
       report was lacking in 1 of the 3 reports reviewed.
       Source documents were missing information about the provider of such documents
       for 1 of the 3 reports reviewed.
       Working papers, such as background information and briefing charts, were missing
       purpose, source, scope, and conclusion for all 3 of the reports reviewed.

       Recommendation. The Army Auditor General should remind all SAP audit
personnel to comply with established guidance for working papers, documentation, and
audit evidence.

       Management Comments. The Army Auditor General concurred with the
recommendation, and stated that AAA would issue a memorandum to all agency
personnel discussing the results of the peer review and reminding them of the existing
guidance for working paper preparation and content. The memorandum would also
remind agency personnel of existing requirements relating to documenting audit work and
cross referencing the work.
       Reviewer Response. Management comments are responsive. The AAA
memorandum discussing the results of the peer review and reminding agency personnel
of existing guidance for working paper preparation and content was issued on
July 29,2005.

Reporting. GAS states that evidence included in audit reports should demonstrate the
correctness and reasonableness of the matters reported. Furthermore, GAS states that one
way to help ensure the audit report is accurate is to use a quality control process such as
independent referencing, a process in which an experienced auditor who is independent of
the audit verifies that statements of fact, figures, and dates are correctly reported, that
findings are adequately supported by the audit documentation, and that the conclusions
and recommendations flow logically from the support.

AAA Regulation 36-85, "Independent Report Referencing," requires supervisors to
obtain an Independent Reference Review prior to issuing the draft report to Command.
The review must be completed by a senior auditor (GS-12 or above) not associated with
the audit under review who "verifies the accuracy of the data in the draft audit report (and
final report, if changes warrant) by tracing the data to supporting documentation in the
working paper files.. .. In cases where all qualified auditors at a field office work on the
audit and funding constraints prevent assigning an outside auditor on temporary duty, the
level 2 supervisor may seek a waiver in order to use auditors on the same audit to
reference areas they did not work on."

Additionally, AAA Regulation 36-85 states that "The referencer will initial each fact and
figure verified in the report to help ensure they overlook nothing. In addition, the
referencer will initial each fact and figure directly on the supporting working paper
evidencing they found the support."

We found that AAA SAP audit reports generally met the GAS reporting standards for the
format of the reports, report contents, report quality, and report issuance and distribution.
However, for two of the three SAP audit reports reviewed, the Independent Reference
Review was completed by a member of the same team that worked on the audit without
an authorizing waiver. AAA SAP auditors stated that they were unable to provide an
auditor who was independent of the audit due to the limited number of staff allowed
access to the SAP being audited. Auditors at one site also stated that they are never able
to provide an independent auditor for this reason.

We also found misleading or unsupported information in the final reports. In one
example, a figure in the report was referred to as "FY 2003" information; however, the
working papers documented that the figure was "as of 7-23-2003." The information in
the report could mislead the reader since over two months of data in the report was not
supported by the audit documentation. Another example is a change in the number of
contractors working on a SAP. The draft report said "one full-time contractor," and the
final report said "seven contractor personnel." Since there was no cross-referenced
version of the final report (and no Independent Reference Review of changes between the
draft and final versions), we were unable to verify support for the figure in the final
report. In addition, we found one report where the Independent Reference Review was
not documented as being completed and the referencer did not place their initials next to
each fact and figure referenced on the draft and the supporting working papers as required
by AAA policies.

       Recommendation. The Army Auditor General should stress to S A P auditors the
importance of independent reference reviews by personnel that are independent of the
audit work, and ensure compliance with the requirement to obtain a waiver and document
specific extenuating circumstances as to why independent referencing cannot be
accomplished.

        Management Comments. The Army Auditor General concurred with the
recommendation and stated that AAA would issue a memorandum to all agency personnel
discussing the results of the peer review and reminding them of the existing requirements
relating to the selection of the referencer. In addition, the Army Auditor General stated
that in instances where an individual not directly associated with the audit is not available
to conduct the Independent Reference Review, the Audit Manager will document the
specific circumstances and submit a request for waiver to the Program Director. The
Army Auditor General stressed that waivers will be the exception rather than the norm for
all on-going and future audits.

       Reviewer Response. Management comments are responsive. The AAA
memorandum discussing the results of the peer review and reminding agency personnel
of the existing requirements relating to the selection of the referencer was issued on
July 29,2005.

Quality Assurance. GAS requires each organization to have an appropriate internal
quality control system in place. As part of the AAA quality control program, AAA
Regulation 36-3 requires a quality control checklist be completed. The checklist includes
steps for performance requirements, standards, and auditor independence; entrance and
exit conferences; reviewing prior reports and gathering background data; audit programs;
data gathering and analysis; due professional care; illegal acts and abuses; working
papers; Command relations; and supervisory controls. Since the need for special access
and security requirements in a SAP environment can impact the extent of supervision,
documentation, and quality controls compared to an unclassified environment, this
checklist serves as an important procedure for ensuring quality in SAP audits.
For the three audits reviewed, the AAA SAP auditors prepared the quality control
checklist; however, we found no explanations for management items that were not
completed or omitted, and the Program Director did not always sign the checklist.
GAS 3.50 requires that an audit organizations internal quality control system should
include procedures for monitoring, on an ongoing basis, whether the policies and
procedures related to the standards are suitably designed and are being effectively
applied. This often referred to as an internal quality assurance program.

AAA Regulation 36-62, "Quality Assurance Program and External Quality Control
Review Responsibilities," provides guidance for conducting the quality assurance
program within the AAA. The regulation states that AAA Quality Assurance Branch
personnel will make periodic internal quality control reviews of selected audit projects.
The reviews will be structured to evaluate compliance with GAS. Depending on the
priorities established by the Auditor General, the 3-year plan will include a mix of audit
and non-audit projects. The regulation further states that all AAA activities and functions
are subject to internal quality control reviews except for SAPs. However, SAPs are
subject to external quality control reviews.

M ' s management comments to the original draft of this report indicated that it was
A M ' S intent to include the SAP audits in their internal quality assurance review
program. AAA should modify AAA Regulation 36-62 to specifically include SAP audits
as part of the internal quality assurance program. We recognize that the usual AAA
quality assurance program may need to be adapted to the SAP environment; therefore, the
regulation should address the SAP environment. Having the internal quality assurance
visibility within the SAP environment is critical to an effective quality program given the
challenges faced in meeting the other quality processes identified in the report and given
the rare occurrence of an external peer review within the environment.

       Recommendation. The Army Auditor General should remind SAP auditors of
existing requirements to complete a quality control checklist, including explaining all
omitted steps, and obtaining appropriate Program Director signature and date for the
completed checklist.

       Management Comments. The Army Auditor General concurred with the
recommendation and stated that AAA would issue a memorandum to all agency personnel
discussing the results of the peer review and reminding them of the existing requirements
to complete the Quality Control Checklist and obtain the appropriate Program Director's
signature and date for the checklist. In addition, the Army Auditor General stated that by
September 30,2005, AAA will include a standard policy paragraph on the Quality
Control Checklist in the regulations. The policy will direct auditors to find the most
current checklist and to provide an explanation for any omitted checklist steps.

      Reviewer Response. Management comments are responsive. The AAA
memorandum discussing the results of the peer review and reminding agency personnel
of the existing requirements to complete the Quality Control Checklist and obtain the
appropriate signature's on the checklist was issued on July 29,2005.

       Recommendation, The Army Auditor General should amend AAA Regulation
36-62 to eliminate the exception for SAPSand if needed, adapt the internal quality
assurance procedures for the SAP environment.

     Management Comments. The Army Auditor General concurred with the
recommendation and stated that by October 3 1,2005, AAA will issue an amended
AAA Regulation 36-62 that will include removal of the exception for SAP audits in the
AAA internal quality assurance procedures.

      Reviewer Response. Management comments are responsive.
Appendix C. Management Comments

                                     DEPARTMENT OF THE ARMY
                                     OFFICE OF THE AUDITOR GENERAL
                                         3101 PARK CENTER DRIVE
                                     ALWNDRIA, VIRGINIA 22302-1586




     SAAG-ZA                                                                  1 July 2005


     MEMORANDUM FOR Assistant Inspector General, Audit Policy and Oversight,
     Inspector General, Department of Defense. 400 Army Navy Drive. Arlington. VA
     22202-4704

     SUBJECT: Qualtty Control Review of Special Access Program Audits


     I. We are providing our written response (enclosure) to the draf&
     recommendations in Appendix B to your memorandum dated 15 June 2005. We
     concur with the intent of all of the recommendations in Appendix 8. Comments,
     Observations. and Recommendations.

     2.   We appreciate the timeliness of your opinion report, and the opportunity to
     provide comments pertaining to your draft. We are especially pleased with your
     conclusion that our system of quality control was designed in accordan- with quality
     standards established by government auditing standards and provides reasonable
     assurance that our auditors working on Special Access Programs are following
     established policies, procedures, and applicable auditing standards,

     3. We thank you and your staff for their professionalism in performing the quality
     control review and bringing to our attention areas where we can improve our
     operations. If you have any questions or need additional information, please call
     MS. Theresa Wilson at (703) 428-7213 or e-mail Theresa.Wilson@aaa.arrnv.mil or
     Ms. Lynn Houck at (703) 428-7222 or e-mail Patricia.Houck@aaa.armv.mil.
  Comments on Appendix B. Comments, Obsemtions, and Recommendations
         Quality Control Review of Speclal Access Program Audits
                     (Project No, D2005-DIPOAI-0098)


 Overall: We are p l e a d with your overall conclusion that the U.S. Army Audit
 Agency (USAAA) has implemented a compmhenshre internal quality control program
 that complies with government auditing standards, is operating effectively, and
 provides reasonable assurance that audit teams follow internal policies and
 procedures and applicable government auditing standards. Our written comments
 pertain to the recommendations in the draft memorandum, Quality Control Review of
 the Army Audit Agency's Special Access Program Audits.




 Recommendation: We recommend that the Army Auditor General develop
 alternative policy guidance or amend AAA Regulation 36-3 to include p d u r e s for
 documenting supervisory review of the work of AlCs within the SAP environment.

 USAAA Comments: We concur that supervisory reviews must be performed and
documented; however, we disagree that alternative policy guidance or an
amendment to USAAAR 3 6 3 (Audit Survey and Execution) is necessary.
USAAAR 36-3 states 'Supervisory reviews of working papers are mandatory, and
supervisots must document their reviews." This is applicable to all auditors whether
they are working classified, unclassified or special access program audits. We
concur that appropriate supervisory review of classified documents is important as a
quality control measure.

 During the course of this review, the Program Director for SAP audits issued
guidance emphasizing the requirementfor supervisory reviews. By 15 July 2005,
the Deputy Auditor General, Policy and Operations Management will issue a
memorandum to all Agency pemonnel discussing the results of the peer review of
the Agency and reminding Agency personnel of the requirements in USAAAR 36-3
relating to supervisory review of working papers and documenting those reviews.
Supervisory review of working papers will continue to be a special interest item on
future quality assurance post audit reviews and on FY 06 functional reviews. In
addition, our new Independent Review Checklist includes a question on whether the
working papers have been reviewed. The independent reviewer must comment on
whether the working papers have been reviewed. The Independent Review
Checklist will be included in USAAAR 36-4 (Report Writing Process). We will issue
USAAAR 3 6 4 by 30 September 2005.




Enclosure                                I
                         Evidence and Audit Documentation

 Recommendation: The Army Auditor General should remind all SAP audit
 personnel to comply with established guidance for working papers, documentation.
 and audit evidence.

 USAAA Comments: Concur. By 15 July 2005, the Deputy Auditor General. Policy
 and Operations Management will issue a memorandum to all Agency personnel
 discussing the results of the peer review of the Agency, and reminding Agency
 personnel of the established guidance for working paper preparation and content.
 All working papers will be appropriately marked with purpose, source, scope. resuhs,
 and condusion. The memorandum will remind Agency personnel of the
 requirements in USAAAR 36-3 relating to doarmenting audit work and cross
 referencing the work.




Recommendation: The Army Auditor General should stress to SAP auditon the
importance of independent reference reviews by personnel that are independent of
the audit work and ensure compliance with the requirement to obtain a waiver and
document specific extenuating circumstances as to why independent referencing
cannot be accomplished.

USAAA Comments: Concur. By 15 July 2005, the Deputy Auditor General, Policy
and Operations Management will issue a memorandum to all Agency personnel
discussing the results of the peer review of the Agency and reminding Agency
personnel of the requirements in USAAAR 36-85 (Independent Report Referencing)
relating to selection of a referencer.

All efforts will be made to ensure that the independent referencer is not directly
associated with the special access program audit under review. In instances where
this is not possible, the Audit Manager will document the specific circumstances and
submit a request for waiver to the Program Director for approval as prescribed by
USAAAR 36-85. However, waivers for an independent referencer will be the
exception rather than the norm for all ongoing and future audits.




Recommendation:The Army Auditor General should remind SAP auditors of
existing requirementsto complete a quality control checklist, including explaining all
omitted steps, and obtaining appropriate Program Director signature and date for the
completed checklist.




Enclosure                                 2
USAAA Comments: Concur. By 15 July 2005, the Deputy Auditor General. Policy
and Operations Management will issue a memorandum to all Agency personnel
discussing the results of the peer review of the Agency and reminding Agency
personnel of the requirements to complete the Quality Control Checklist and obtain
the appropriate program director's signature and date for the checklist. The
memorandum will inform Agency .personnel that the checklist dated
12 February 2004 is the checklist that they should be using. This version of the
checklist is currenUy available in USAAAR 3862. The checklist can also be
obtained from the audit templates file and the quality assurance Web page on the
Agency's intranet. The various sections of the checklist and completing the checklist
are discussed in USAAAR 3&2 (Guidance for Planning an Audit Engagement),
USAAAR 36-3 (Audit Survey and Execution), Draft USAAAR 36-4(Report Writing
Process), and USAAAR 36-5 (Report Reply and Follow-up Process). By
30 September 2005, we will include a standard policy paragraphon the Quality
Control Checklist in the regulations. The policy will direct auditon to find the most
current checklist in the templates file on the intranet. The updated Quality Control
Checklist will require an explanation for omitted checklist steps.




Enclosure                               ?l
                                   DEPARTMENTOF THE ARMY
                                      US. M W y l D W AOENCv
                           DFPICE OT THC PN-AL      DCPUrr WDlFDll OMLllAL
                                          NO1 PARK CENTER ORJVlE
                                      ~              ~ 22302-1SS6   V        A




SAAG-PMZ                                                                         19 A u p t 2005

MEMORANDUM FOR Assistant Inspeaor G e n d , Audit Policy and Ovcrsighg Inspector
Gcnaal, Dcpamnent of aefense, 4QU A m y Navy Dnw,A r h p n , VA 22202-4704

SUBJBJECS: Qudity Contml Review of Atmy Audit Agency's S p e d Access Progrnm
Audits (Pmjerr No.D2005-DIPQAI-Q098)


1. Were is our written wponse to your d d t report d n d 1 A u w t 2005- We are
providing comments to the iwxmtnedtia added on page 10 ~la16ngto exduding Agaxy
SAP audits from periodic i n dquality nmmnct rrvicwa. WEchooat not f~ respond
again to the a& ~omm~adrrtiona.   Wc concur with the intent of A of rhe
rremdari- inAppendix B,Comments, Observations, and Reeornmenbtions. The
added tecmmmdatlon and our reply follow.

    Rfclommmdation: The A d t o t G m d should amend AAA Rtguhtion 36-62 to
elimimtc the exception fox SAP audits and if needed, adapt thc i n t m d quality sssurnnct
procedures far the SAP emironmcnt.

    UMAA Rcply: Concur. In our past internal quality assurance fevicw%, w included
non-SAP audit reports cornpled by the team that perf;om the SAP audits. A h the SAP
a 6 are subject to rxrunalpecr h e w . However, we Pgree that we should nor adude
m y audit or group of audits frcrrr,selection tbr internal quality ~      ~&w. ~We are inc         t
the process of updathg U S M 3662. We we planning to complete the updaa by
31 Octaber 2005. We will amend the regularion to remove the exception for SAP audits.
Because there is no cxceptim far SAP audits, they wjll               Eay ow qdg assumnce
pmdurcs.
2. We apprcxiaa the hclinebs of yaw a p i k n report, and the oppartunity to provide
commentspertaining w your draft. We are especially pleased with your conclumon that our
qstem of quality cmftul w a s dt?@pedin accor&nce with quality stpndnrds established by
the Goveraau~ntAuditing Standards and provide6 ~ ~ ~ n aassurance
                                                               b l c that our a d t o t s
working; an special access programs ate f011~1wingestablished policies, pmcdurcq and
epplicable au&mg standards.
SAAG-PMZ
SUBJECT Q d i t y Control Review o i h y Audit Agency's Spxial Access
Program Audits [Project No. D2005-DIPOAT-0098)


3. We h a r k you and ynut staff fox thelx professio&m in pezforrmng h e quality cmml
review and bringing to ow attention areas w h t e we cpn impmve ow opcradons, If you
have any questions pkagecdl all. Charles T.Lyons at 703-681-8391 or c d
charles.lyonx@aa.~pPmilot Ms.JoL Spielvogel at 703-681-4288 or e-mil
jfi.~pidvogcll@aa9.army.d




                                          2
